vT

i

No. 19-332
In The
SUPREME COURT OF THE
UNITED STATES
Steven E. Davis et, al
Petitioner
v.

Bank of America N A et, al
^ Respondent
On Petition for a Writ of Certiorari to the United States Court of
Appeals for the Seventh Circuit
PETITION FOR REHEARING
Steven Davis et, al
1752 W. Edmaire
Chicago, IL 60643
773-441-2742
(Please refer to parties List}

RECEIVED
DEC 1 2 ?fliq
OFFICE OF THE CLERK
SUPREME COURT II R

No. 19-332

In The
Supreme Court of the United
States
Steven Davis et, al
Petitioners
V.
Bank of America N.A. et, al.
Respondents’
PETITION FOR REHEARING
Supreme Court Rule 44.2 Certification
Good Faith and Not for Delay
As required by Supreme Court Rule 44.2 Rehearing and
outlined in the Supreme Court. I certify that the document
filed with this certification, Petition for Rehearing, is
presented in good faith and not for delay.

1

Parties Petitioners
Steven Segura
Geraldine Blanton
Peggy L. Strong
Cherly Bell
Louis G. Bartucci
Cherly M. Malden
Jeffrey Sanders Denise Woodgett
Mack Glover
Yvonne Singleton
Zdzislaw Krajewski
Elizabeth Robinson
Larry and Belinda
Dennis F. and Susan R. Martinek
Emmauel S. and Connie C. Bansa
Ralph E. and Joan M. Holley
Ulsen and Georgia Anderson
Darryl and Ann-Coney-BeU

Respondents:
Bank of America Corporation
Bryan Cave Leighton Paisner LLP
Atty: Jena M. Valdetero
Robert W. Brunner
MERS and Merscorp Inc.
K&L Gates LLP
Atty: Andrew C. Glass
Gregory N. Blase

11

Citigroup Inc., HSBC Bank USA N.A.
Wells Fargo & Co.
Mayer Brown LLP
Atty: Lucia Nale
Thomas V. Panoff
Christopher S. Comstock
Tyler Alfermann
Michelle V. Dohra
U.S. Bank Trust National Assoc.
And Irina Daskevsky
Locke Lord LLP
Atty: Ryan M. Holz
SunTrust Bank Corp.
Pilgrim Christakis LLP
Atty: Jeffrey D. Pilgrim
Carter
Chase Manhattan Bank a/k/a JP
Morgan Chase
Morgan, Lewis & Bockius LLP
Atty: Megan R. Braden
Kenneth M. Kliebard
Bank of New York Mellon
Unrepresented

Ill

Respondent List Cont.
Ditech Financial LLC
Bankruptcy Attorneys
Weil, Gotshal & Manges LLP
Atty: Ray C. Schrock, P.C.

TABLE OF CONTENTS
ii/iii
LIST OF PARTIES.............
TABLE OF CONTENTS.....
in.
TABLE OF AUTHORITIES .IV
RULES.................................
IV
PETITION FOR REHEARING...v.
REASONS FOR GRANTING THE PETITION
CONCLUSION
10

1.

iv

TABLE OF AUTHORITIES
Cardenas v. City of Chicago, 646 F. 3d 1001, 1004 (7th Cir.
2011)...3
Chorosevic u. MetLife Choices, 600 F. 3d 934, 946 (8th Cir.
2010). ..4
Honorable Wendell Griffen v. Arkansas Supreme Court, et al., No.
4:17-cv-639-JM (Eastern District of Arkansas Western
Division)
5.
Gerlach v. Michigan Bell Tel. Co., 448 F. Supp. 1168, 1174
(E.D. Mich. 1978)
8.
Kingvision Pay-Per-View Ltd. v. Niles, 150 F. Supp. 2d 188, 190
(D. Me. 2001) (citing FED.R.CTV.P. 55(a)).
8.

Pinlac, et al. vs. Court of Appeals, et al., G.R. No. 91486, 19
January 2001
9.
Rules
Rule 44.2 1
Rule 4(2) If a Party Fails to Appear.
Statutes
25 U.S.C. § 1302 A, 1

V.

45 CFR § 681.10 - What happens if a defendant fails to file an
answer?
FED. R. CIV. P. 6(b)(1)(B).

PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, the Petitioner’s and all other
petitioners, hereby respectfully petition for rehearing of this case
before a full nine-Member Court.
Respectfully Petition for Rehearing of the Court's Decision to
deny the Petition for Writ of Certiorari dated October 15, 2019.
Mr. Davis
And all Petitioners member (to numerous to name see list of
petitioners) moves this Court to grant this Petition for Rehearing
because of the substantial controlling effect of the right to
redress intentional Constitutional deprivations.
By Rule 44.2, this Petition for Rehearing is filed within 25 days
from the October 18th, 2019 Denial of the Petition for Writ of
Certiorari.

1.

REASONS FOR GRANTING THE PETITION
This Coui't should grant this petition base on the facts that
the Lower Court denied Petitioners they were
“Deprivated of their “DUE PROCESS”.
The merit became nothing more than pure hearsay after
the Respondents failed to respond to the complaint. The
Petitioners’ has been discriminated, humiliate, ridicule,
criticized and labeled as low-income ghetto pro se litigants.
This kind of behaviors from officers of the court was
unappreciated and disrespectful to this diverse group of
Petitioners... whereas 80% are professional collage
educated seniors citizens.

2.

We did not deserve the treatment we received from both the
courts and attorneys.
The deprivation of Petitioners “RIGHTS” in this case
were pursuant to 18 U.S. Code §242. When Judge Charles
P. Kocoras of the Northern District Court unduly brought
harm to the Petitioners by allowing the Respondents’ to
disregard and disrespect Petitioners complaint. Without
paraphrase any law the Petitioners violated.
As Pro Se Petitioners there’s no leverage in the justice
system unless you can reach a judge who will show you that
justice do exists, and leverage is number one priority.
Fortunately, the Petitioners found that Judge in the state
of New York.

3.

On October 25, 2017, Petitioners re-filed their case as case
No. 17-cv-7714. From a previous case filed on June 8, 2016,
as case No. 16-cv-5993 whereas, that case was dismissed by
Judge Charles P. Kocoras. In the Northern District of
Illinois.
As a defendant, you must typically file an answer or other
responsive motion within 21 days of being served with the
summons and complaint.
After commencing a federal suit, the plaintiff must ensure
that each defendant receives a summons and a copy of the
complaint against it. Cardenas v. City of Chicago, 646 F.3d
1001, 1004 (7th Cir. 2011)

4.

When a defendant brings a motion under Rule 12(b)(5), it is
the plaintiff s burden to demonstrate that effective service
occurred. Cardenas, 646 F.3d at 1005.
Respondents' Bank of America Corporation, US Bank Trust
as Trustee for LSF9 Master Participation Trust, JP Morgan
Chase Bank N.A. CitiGroup Inc.
and Wells Fargo & Company were served on October 26,
2017, their answer or otherwise plead was respectfully due
on November 16, 2017.
Bank of New York Mellon USA and Irina Dashevskt of
Locke and lord LLP was served on October 30, 2017,
whereas, answer was respectfully due November 22, 2017,
Merscorp Holdings Inc., Mortgage Electronic Registration
Systems Inc., The Bear Stream Companies, LLC and
Richard A. Rice served on November 17,

5.

2017, and SunTrust Banks was served on November 27,
2017.
Ditech Financial LLC aka GreenTree Financial Corp. was
certified mail on November 21, 2017. There answer was due
no later than December 6, 2017.
See Honorable Wendell Griffenv. Arkansas Supreme Court,
etal., No. 4:l7-cv-639-JM (Eastern District of Arkansas
Western Division).
On November 3,2017, and order from Judge Charles P.
Kocoras order which stated in parts: Lead counsel for each
party is required to attend the initial hearing. On
December 5, 2017, Failure to appear at any schedule court
hearing may result in the dismissal of claims for want of
prosecution.
That language was intended for the Petitioners/Plaintiffs’
only. The Petitioners were unaware at that time until they
filed their “first notice of default”

6.

which was invisible by both Court and Court Clerk.
At that point Petitioners rights were defeated by both the
Federal and Appeal Court. There’s no justice for the pro se
litigants.
On February 11, 2019 Respondent Ditech Financial LLC
filed a Chapter 11 Bankruptcy within the Southern District
of New York Bankruptcy Court as case No. 19-10412.
Whereas, the Petitioners case became a creditor to
bankruptcy action.
This where we were able to see some form of equal justice.
Due to the fact this case is still pending the attorneys
involved in this case has been in complete communication
with the Petitioners. Sad to say this the only time the
attorneys reached out to the Petitioners.

7.

Over the course of the Petitioners case we had tried to
communicate with the Defendants attorneys in order to
possibly reach a settlement.
Petitioners do not wish to speculate it appears that some
form of agreement was reached between the Judge Charles
P. Kocoras. When he disregarded his on order and
dismissed with prejudice Petitioners case on both court
date December 5, and 14 2017. Refused to recognize
Petitioners’ motion of default against the Respondents’.
Rule 4(2) If a Party Fails to Appear. No service is required
on a party who is in default for failing to appear. But
a pleading that asserts a new claim for relief against such a
party must be served on that party under Rule 4.

8.

Sec. 3. Default; declaration of. — If the defending party
fails to answer within the time allowed therefor, the court
shall, upon motion of the claiming party with notice to the
defending party, and proof of such failure, declare the
defending party in default.” See Gerlach v. Michigan Bell
Tel. Co., 448 F. Supp. 1168, 1174 (E.D. Mich. 1978)
(“F.R.C.P. 12 does not explicitly address the issue of whether
the filing of a motion under F.R.C.P. 12(b) ... alters the time
within which the moving party must respond to claims in
the complaint not addressed in the motion. ”).
If the defendant in a federal case “fails to file an answer in
response to a complaint, and the plaintiff notifies the Court,
then the Clerk must enter default against that defendant.”
Kingvision Pay-Per-View Ltd. v. Niles, 150 F. Supp. 2d 188,
190 (D. Me. 2001) (citing FED.R.CIV.P. 55(a)).

9.

Once that occurs, “no responsive pleading may be made ...
unless the Defendant formally moves to set aside the entry
of default.”
The Supreme Court has ruled upon Section 3 (c) of Rule 9
in the case of Pinlac, et al. vs. Court of Appeals, et al., G.R.
No. 91486, 19 January 2001. There the Supreme Court
affirmed that when a party does not file an Answer,
although his co-defendants do so, default is availing against
the former. The Supreme Court ruled:
(c) Effect of partial default. — When a pleading asserting a
claim states a common cause of action against several
defending parties, some of whom answer and the others fail
to do so, the court shall try the case against all upon the
answers thus filed and render judgment upon the evidence
presented. ”

10.

Conclusion
The Petitioners’ pray that the facts presented in this
rehearing petition will be justified and granted, rehearing
should be granted on grounds that Petitioners’ were
wrongfully and intentionally deprived of their “DUE
PROCESS” denied of filing notices of default for summary
against the Respondents.
Respectful, Submitted
By Listed Petitioners’

No. 19-332
In The
Supreme Court of the United
States
Steven Davis et, al,
Petitioners
V.
Bank of America N.A., et al.,
Respondents
PETITION FOR REHEARING
Supreme Court Rule 44.2
Certification
Restricted Grounds
As required by Supreme Court Rule 44.2 Rehearing, I
certify that the document filed with this certification,
Petition for Rehearing, is restricted to substantial and
controlling effect and substantial grounds not previously
mentioned.
Dated: November 9, 2019
Steven Davis et, al, Pro Se

